          Federal Housing Finance Agency
              Office of Inspector General




   CliftonLarsenAllen, LLP’s
    Independent Audit of the
Federal Housing Finance Agency’s
     Privacy Program – 2014




Audit Report  AUD-2014-020  September 26, 2014
The Federal Housing Finance Agency (FHFA) Office of Inspector General (OIG) issued the subject
report on September 26, 2014. Section 522 of the Consolidated Appropriations Act of 2005 requires
the Inspector General of each agency to periodically conduct a review of the agency’s
implementation of the requirements of Section 522, including the agency’s privacy program. OIG
contracted with CliftonLarsenAllen to perform this audit.

AUDIT OBJECTIVE: The objective of this audit was to assess the FHFA privacy program and
implementation, including compliance with associated statutory and regulatory requirements
concerning protection of personally identifiable information. Specifically, the audit determined
whether FHFA implemented comprehensive privacy and data protection procedures and accurately
reported on its use of privacy information.

Because information in this report could be abused to circumvent FHFA’s internal controls, it
has not been released publicly.
